               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 14-02198-284



 Community Based Outpatient Clinic 

        Summary Report 


          Evaluation of CBOC 

            Cervical Cancer 

    Screening and Results Reporting 





September 23, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                                     Evaluation of CBOC Cervical Cancer Screening and Results Reporting



                                   Executive Summary 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted a
systematic review of the Veterans Health Administration’s (VHA’s) Community Based
Outpatient Clinics (CBOCs) to evaluate for compliance with selected VHA requirements
regarding cervical cancer screenings and results reporting.

The objectives were to determine (1) whether women veterans, ages 23–64, received
cervical cancer screening (CCS) and (2) whether ordering providers and patients
received notification of cervical cancer screening results within the timeframes
established by VHA policy (timeliness). Inspectors performed this evaluation during
CBOC reviews conducted from October 1, 2012, through September 30, 2013.1

Cervical cancer is the second most common cancer in women worldwide.2 Each year in
the United States, approximately 12,000 women are diagnosed with cervical cancer.
The first step of care is screening women for cervical cancer with the Papanicolaou or
“Pap” test. Screening with the Pap test is one of the most reliable and effective cancer
screening tests available. With timely screening, diagnosis, notification, and treatment,
the cancer is highly preventable and associated with long survival and good quality of
life.

Women now make up 11 percent of veterans from Operating Enduring Freedom and
Operation Iraqi Freedom (OEF/OIF), and this equates to nearly 98,000 women
veterans. The American Medical Association, the Centers for Disease Control and
Prevention, the US Preventive Services Task Force, and others have issued
recommendations in support of CCS.3,4,5 Women veterans should have CCS at regular
intervals, and those at high risk may need to be screened more often. VHA also has
specific timelines for the reporting of normal and abnormal test results and requires
documentation in each patient’s electronic health record (EHR).6

From our initial sample of 2,180 VHA women veterans with at least two primary care
appointments during FY 2011 or FY 2012, we found 1,989 women veterans who had
EHR documentation of CCSs performed or refused. Based on this evaluation sample,
we estimated that 50.7 percent (95%CI: 41.35–60.09) had CCS performed at a CBOC,
23.0 percent (95%CI: 15.79–32.31) had CCS performed at the assigned VHA parent
facility, and 0.3 percent (95%CI: 0.17–0.71) had CCS performed through fee-basis
agreement during the study period.



1
  Includes CBOCs in operation before October 1, 2011.

2
  U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999–2007 Incidence and Mortality Web-

based report.

3
  Woolf, S.H. & Harris, R. (2012). The Harms of Screening; New Attention to an Old Concern. The Journal of the 

American Medical Association (JAMA);Vol. 307, No. 6; pgs. 565–566. 

4
  American Cancer Society (January 4, 2012). Health groups issue proposed cervical cancer screening guidelines. 

5
  Centers for Disease Control and Prevention. CDC Home. Retrieved from: http://www.cdc.gov/cancer/cervical. 

6
  VHA Handbook 1330.01. 



VA Office of Inspector General                                                                                 i
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting


We then further evaluated this subset of 1,416 EHRs which included those who had
CCSs performed at their assigned CBOC, VHA parent facility, or through fee-basis
agreement. Based on the review of this subset, we estimated that 99.2 percent (95%CI:
97.95–99.66) of the test results were documented in the laboratory package of the EHR
and that the ordering provider notification rate (as documented in the EHR) for normal
results was 90.7 percent (95%CI: 73.79–97.14).

However, we estimated that the VHA rate of provider notification of abnormal results
was 80.8 percent (95%CI: 67.37–89.59) and that the patient notification rate (as
documented in the EHR) of normal and abnormal results was 84.1 percent (95%CI:
76.56–89.50) and 67.7 percent (95%CI: 58.28–75.85), respectively. These VHA
compliance rates are statistically significantly different from the 90 percent benchmark.

We recommended that the Interim Under Secretary for Health ensure that a consistent
process is established for notifying ordering providers of abnormal cervical cancer
screening results within the required timeframe and that notification is documented in
the EHR. We also recommended that the Interim Under Secretary for Health ensure
that a consistent process is established for notifying women veterans of normal and
abnormal cervical cancer screening results within the required timeframe and that
notification is documented in the EHR.

Comments
The Interim Under Secretary for Health concurred with the findings and
recommendations. (See Appendix B, pages 10–12, for the full text of the comments.)
The implementation plans are acceptable, and we will follow up until all actions are
completed.




                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for
                                                            Healthcare Inspections




VA Office of Inspector General                                                                    ii
                                      Evaluation of CBOC Cervical Cancer Screening and Results Reporting



                                                Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted a
systematic review of the Veterans Health Administration’s (VHA’s) Community Based
Outpatient Clinics (CBOCs) to evaluate for compliance with selected VHA requirements
regarding cervical cancer screenings and results reporting.

Our objectives were to determine (1) whether women veterans, ages 23–64, received
cervical cancer screening (CCS); and (2) whether ordering providers and patients
received notification of CCS results within the timeframes established by VHA policy
(timeliness).

                                            Background 

Since 1995, VHA has transitioned from a hospital bed-based system of care to one that
is rooted in ambulatory and primary care. CBOCs are an important component of the
VA health care delivery system as they aim to improve access to primary care and other
health care services while providing high-quality care in a cost effective manner. As
requested in House Report 110-775, to accompany H.R. 6599, Military Construction,
Veterans Affairs, and Related Agencies Appropriation Bill, fiscal year (FY) 2009, the VA
OIG has been systematically reviewing VHA CBOCs since April 2009.

A VHA CBOC is a health care site that is geographically distinct and separate from a
parent medical facility and may be a site that is VA-operated and/or contracted. VHA
CBOCs can provide primary, specialty, subspecialty, mental health (MH) care, or any
combination of health care delivery services that can be appropriately provided in an
outpatient setting. This includes health promotion (screening and counseling), disease
prevention, and management of acute minor illnesses and chronic conditions. Each
CBOC is affiliated with a single VA medical center (VAMC) or parent facility that is
administratively responsible for that CBOC. One standard of care must be maintained at
the parent facility and CBOCs.

Because of the number of women on active duty and the numbers entering military
service, the percentage of veterans who are female is projected to increase from
7.7 percent in 2008 to 10 percent in 2018 and to 14.3 percent in 2033. Women now
make up 11 percent of veterans from Operating Enduring Freedom and Operation Iraqi
Freedom (OEF/OIF)—equating to nearly 98,000 women veterans. Among OEF/OIF
women veterans, 42.6 percent are enrolled and 28.5 percent are users of VHA
services.7 VHA has established the minimum clinical requirements to ensure that all
eligible and enrolled women veterans, irrespective of where they obtain care in VHA,
have access to all necessary services as clinically indicated.8




7
    OEF/OIF Utilization Data, FY2008, 2nd Quarter, Kang H. Dept Veterans Affairs, OPHEH
8
    VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.


VA Office of Inspector General                                                                        1
                                     Evaluation of CBOC Cervical Cancer Screening and Results Reporting


Cervical cancer is the second most common cancer in women worldwide.9 Each year in
the United States, approximately 12,000 women are diagnosed with cervical cancer.
The first step of care is screening women for cervical cancer with the Papanicolaou or
“Pap” test. Screening with the Pap test is one of the most reliable and effective cancer
screening tests available. With timely screening, diagnosis, notification, and treatment,
the cancer is highly preventable and associated with long survival and good quality of
life.

The American Medical Association, the American College of Obstetricians and
Gynecologists, the American Cancer Society, the Centers for Disease Control and
Prevention, and the US Preventive Services Task Force have issued recommendations
in support of cervical cancer screening.10,11,12 Women veterans should have CCS at
regular intervals, and those at high risk may need to be screened more often. VHA also
has specific timelines for the reporting of normal and abnormal test results and requires
documentation in each patient’s electronic health record (EHR).13

                               Scope and Methodology 

Scope. The study population consists of all women veterans between the ages of at
least 23 as of October 1, 2009, and younger than 65 as of June 30, 2012, who were
treated in the parent facility CBOCs for at least two Primary Care visits during FY 2011
and/or FY 2012.

Methodology. We reviewed local policies, meeting minutes, and other documents
relevant to CCS and results reporting. We also evaluated EHRs and interviewed clinical
managers and staff.

We used a two-stage complex probability sample design to select patients from the
study population for the EHR reviews. In the first stage of sampling, we statistically
randomly selected 55 VAMCs stratified by the 12 catchment areas of the OIG’s Office of
Healthcare Inspections regional offices. Then we compiled a list of eligible CBOC
patients who were assigned to the parent facility for each of the selected 55 VAMCs.14

In the second stage of sampling, we randomly selected 50 patients from each of the
55 patient lists for our EHR reviews. If a VAMC had fewer than 50 eligible CBOC
patients who met the criteria for the focused review, we reviewed all of the patients on
the list.

We reviewed the EHRs of these sampled women veterans to determine if a CCS had
been performed at the parent facility, CBOCs, or through fee-basis assignment. For the
9
  U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999–2007 Incidence and Mortality Web-

based report.

10
   Woolf, S.H. & Harris, R. (2012). The Harms of Screening; New Attention to an Old Concern. The Journal of the 

American Medical Association (JAMA);Vol. 307, No. 6; pgs. 565–566. 

11
   American Cancer Society (January 4, 2012). Health groups issue proposed cervical cancer screening guidelines. 

12
   Centers for Disease Control and Prevention. CDC Home. Retrieved from: http://www.cdc.gov/cancer/cervical. 

13
   VHA Handbook 1330.01. 

14
   Includes all CBOCs in operation before October 1, 2011.



VA Office of Inspector General                                                                                   2
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting


female veterans who received CCS at the parent facility, its respective CBOCs, or
through a fee-basis agreement during the study period (October 1, 2009, through
September 30, 2012), we reviewed the EHR to determine if the following review
elements were documented according to VHA policy:15

	 Test results were documented in the Laboratory Package of the Computerized
   Patient Records System (VA’s EHR).

	 Results of normal cervical pathology were reported to:

          o	 The ordering provider within 30 calendar days of the issuance of the
             pathology report, and

          o	 The patient within 14 calendar days from the date of pathology report
             availability to the provider.

	 Results of abnormal cervical pathology were reported to:

          o	 The ordering provider within five business days, and

          o	 The patient within five business days of the issuance of the report.

Statistical Analysis. We estimated the VA compliant percentages for each of the quality
measures, taking into account the complexity of our multi-stage sample design. We
used Horvitz-Thompson sampling weights (reciprocal of sampling probabilities) to
account for unequal probability sampling and the Taylor expansion method to obtain the
sampling errors for the estimates. We considered a VAMC compliant with policy if at
least 90 percent of its eligible patients met CCS requirements.

We presented 95 percent confidence intervals (95% CI) for the estimates of the true
values (parameters) of the study population. A confidence interval gives an estimated
range of values (being calculated from a given set of sample data) that is likely to
include an unknown population parameter. The 95% CI indicates that among all
possible samples we could have selected of the same size and design, 95 percent of
the time the population parameter would have been included in the computed intervals.

Percentages can only take non-negative values from 0 to 100, but their logits can have
unrestricted range so that the normal approximation can be used. Thus, we calculated
the confidence intervals for percentages on the logit scale and then transformed them
back to the original scale to ensure that the calculated confidence intervals contained
only the proper range of 0 to 100 percent. All data analyses were performed using SAS
statistical software, version9.3 (TS1M0), SAS Institute, Inc. (Cary, North Carolina).

OHI conducted this inspection during CBOC reviews beginning October 1, 2012,
through September 30, 2013. Facility-specific review results were reported in 55 CBOC


15
     VHA Handbook 1330.01.


VA Office of Inspector General                                                                   3
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting


reports. For this report, we aggregated and analyzed the data collected from the
individual evaluations.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                   4
                                  Evaluation of CBOC Cervical Cancer Screening and Results Reporting



                                  Inspection Results 

Inspection Results
Our initial sample consisted of 2,180 VHA women veterans with at least two primary
care appointments during FY 2011 or FY2012. Of these, we found 1,989 women
veterans who had EHR documentation of CCSs performed or refused. Based on this
evaluation sample, we estimated that 50.7 percent had CCS performed at a CBOC
during the study period, and we are 95 percent confident that the true screening rate at
the CBOCs is somewhere between 41.35 to 60.09.               We also estimated that
23.0 percent (95%CI: 15.79–32.31) had CCS performed at the assigned VHA parent
facility and 0.3 percent (95%CI: 0.17–0.71) had CCS performed through fee-basis
agreement. Table 1 lists the results.
Table 1. Cervical Cancer Screenings

                                                                 Estimated VA Compliance
     Cervical Cancer Screenings                                     95 Percent Confidence Interval
                                         Frequency
       Noted in EHR Reviews                                                     Limits
                                                        Percent
                                                                        Lower          Upper
    Performed at Assigned CBOC               820          50.7           41.35          60.09
   Performed at VHA Parent Facility          587          23.0           15.79          32.31
     Performed by Private Sector
         (non-VA funded care)                366          17.6           16.02           19.37
         Performed at Another
    Previously Visited VHA Facility          97            4.4           3.50              5.60
            Patient Refused                  110           3.8           2.78              5.22
          Performed Through
        Fee-Basis Agreement                  9            0.3            0.17              0.71
                 Total                      1989         100.0

Issue 1: Documentation of Results in EHR

We then further evaluated this subset of 1,416 EHRs consisting of those who had CCSs
performed at their assigned CBOC, VHA parent facility, or through fee-basis agreement.
Based on the review of this subset, we estimated that 99.2 percent of the test results
were documented in the laboratory package of the EHR, and we are 95 percent
confident that the true documentation rate for the VA patients who had CCSs
performed at their own CBOCs, parent facilities, or through fee-basis is somewhere
between 97.95 to 99.66, which is statistically significantly above the 90 percent
benchmark.

Issue 2: Timeliness of Provider Notification of Results

Based on the subset of 1,416 women veterans mentioned above, we estimated that VA
provider (documented in the EHR) notification rate for normal results was 90.7 percent
(95%CI: 73.79–97.14), which is not statistically significantly different from the 90 percent
benchmark. However, the VA rate of provider notification of abnormal results within


VA Office of Inspector General                                                                    5
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting


5 business days was 80.8 percent (95%CI: 67.37–89.59), which is statistically
significantly different from the 90 percent benchmark.

Issue 3: Timeliness of Patient Notification of Results

Based on the subset of 1,416 women veterans mentioned above, we estimated that
patient notification rate (as documented in the EHR) of normal results within 14 days of
pathology report availability was 84.1 percent (95%CI: 76.56–89.50), and the
notification of abnormal results within 5 business days of the issuance of the report was
67.7 percent (95%CI: 58.28–75.85). The VA compliance rates for women veteran
notification of both normal and abnormal results are statistically significantly different
from the 90 percent benchmark.

                                      Conclusions 

From our initial sample of 2,180 VHA women veterans with at least two primary care
appointments during FY 2011 or FY2012, we found 1,989 women veterans who had
EHR documentation of CCSs performed or refused. Based on this evaluation sample,
we estimated that 50.7 percent (95%CI: 41.35–60.09) had CCS performed at a CBOC,
23.0 percent (95%CI: 15.79–32.31) had CCS performed at the assigned VHA parent
facility and 0.3 percent (95%CI: 0.17–0.71) had CCS performed through fee-basis
agreement during the study period.

We then further evaluated this subset of 1,416 EHRs which included those who had
CCSs performed at their assigned CBOC, VHA parent facility, or through fee-basis
agreement. We estimated that 99.2 percent (95%CI: 97.95–99.66) of the test results
were documented in the laboratory package of the EHR and that the ordering provider
notification rate for normal results was 90.7 percent (95%CI: 73.79–97.14).

However, we estimated that the VHA rate of provider notification of abnormal results
within 5 business days was 80.8 percent (95%CI: 67.37–89.59). We also estimated that
the patient notification rate (as documented in the EHR) of normal results within 14 days
of pathology report availability was 84.1 percent (95%CI: 76.56–89.50) and that of
abnormal results within 5 business days of the issuance of the report was 67.7 percent
(95%CI: 58.28–75.85). These VHA compliance rates are statistically significantly
different from the 90 percent benchmark.




VA Office of Inspector General                                                                   6
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting



                                 Recommendations 

1. We recommended that the Interim Under Secretary for Health ensure that a
consistent process is established for notifying ordering providers of abnormal cervical
cancer screening results within the required timeframe and that notification is
documented in the electronic health record.
2. We recommended that the Interim Under Secretary for Health ensure that a
consistent process is established for notifying women veterans of normal and abnormal
cervical cancer screening results within the required timeframe and that notification is
documented in the electronic health record.




VA Office of Inspector General                                                                   7
                                          Evaluation of CBOC Cervical Cancer Screening and Results Reporting
                                                                                               Appendix A

                                      Parent Facilities Reviewed16
Names                                                                            Locations
Alaska VA Healthcare System                                                      Anchorage, AK
Amarillo VA Health Care System                                                   Amarillo, TX
Asheville VA Medical Center                                                      Asheville, NC
Battle Creek VA Medical Center                                                   Battle Creek, MI
Captain James A. Lovell Federal Health Care Center                               North Chicago, IL
Carl Vinson VA Medical Center                                                    Dublin, GA
Central Arkansas Veterans Healthcare System                                      Little Rock, AR
Central Texas Veterans Health Care System                                        Temple, TX
Chalmers P. Wylie Ambulatory Care Center                                         Columbus, OH
Charlie Norwood VA Medical Center                                                Augusta, GA
Cheyenne VA Medical Center                                                       Cheyenne, WY
Chillicothe VA Medical Center                                                    Chillicothe, OH
Coatesville VA Medical Center                                                    Coatesville, PA
Dayton VA Medical Center                                                         Dayton, OH
Durham VA Medical Center                                                         Durham, NC
Edith Nourse Rogers Memorial Veterans Hospital                                   Bedford, MA
Edward Hines Jr. VA Hospital                                                     Hines, IL
Fargo VA Healthcare System                                                       Fargo, ND
G.V. (Sonny) Montgomery VA Medical Center                                        Jackson, MS
Hunter Holmes McGuire VA Medical Center                                          Richmond, VA
Iowa City VA Health Care System                                                  Iowa City, IA
Jack C. Montgomery VAMC                                                          Muskogee, OK
James A. Haley Veterans’ Hospital                                                Tampa, FL
Jesse Brown VA Medical Center                                                    Chicago, IL
John J. Pershing VA Medical Center                                               Poplar Bluff, MO
Kansas City VA Medical Center                                                    Kansas City, MO
Louis A. Johnson VA Medical Center                                               Clarksburg, WV
Manchester VA Medical Center                                                     Manchester, NH
Marion VA Medical Center                                                         Marion, IL
Mann-Grandstaff VA Medical Center                                                Spokane, WA
James H. Quillen VA Medical Center                                               Mountain Home, TN
North Florida/South Georgia Veterans Health System                               Gainesville, FL
Northern Arizona VA Health Care System                                           Prescott, AZ
Northport VA Medical Center                                                      Northport, NY
Oklahoma City VA Medical Center                                                  Oklahoma City, OK
Philadelphia VA Medical Center                                                   Philadelphia, PA
Richard L. Roudebush VA Medical Center                                           Indianapolis, IN
Robley Rex VA Medical Center                                                     Louisville, KY
Salem VA Medical Center                                                          Salem, VA
San Francisco VA Medical Center                                                  San Francisco, CA
Sheridan VA Medical Center                                                       Sheridan, WY
Sioux Falls VA Health Care System                                                Sioux Falls, SD
VA Butler Healthcare                                                             Butler, PA
VA Central California Health Care System                                         Fresno, CA
VA Connecticut Healthcare System                                                 West Haven, CT
VA Greater Los Angeles Healthcare System                                         Los Angeles, CA
VA Maine Healthcare System                                                       Augusta, ME


16
     This report refers to the CBOCs for these randomly selected parent facilities.


VA Office of Inspector General                                                                            8
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting


Names                                                            Locations
VA Maryland Health Care System                                   Baltimore, MD
VA New Jersey Health Care System                                 East Orange, NJ
VA Pacific Islands Health Care System                            Honolulu, HI
VA Palo Alto Health Care System                                  Palo Alto, CA
VA Pittsburgh Healthcare System                                  Pittsburgh, PA
VA Texas Valley Coastal Bend Health Care System                  Harlingen, TX
VA Western New York Healthcare System                            Buffalo, NY
William S. Middleton Memorial Veterans Hospital                  Madison, WI




VA Office of Inspector General                                                                   9
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting
                                                                                      Appendix B

        Interim Under Secretary for Health Comments


               Department of
               Veterans Affairs                                 Memorandum

   Date:           September 5, 2014

   From:           Interim Under Secretary for Health (10)

   Subject:        OIG Draft Report, Community Based Outpatient Clinic
                   Summary Report – Evaluation of CBOC Cervical Cancer
                   Screening and Results Reporting (2014-02198-HI-0466)
                   (VAIQ 7518044)

         To:       Assistant Inspector General for Healthcare Inspections (54)

                   1. Thank you for the opportunity to review the draft Community
                   Based Outpatient Clinic (CBOC) Summary Report – Evaluation
                   of CBOC Cervical Cancer Screening and Results Reporting. I
                   have reviewed the draft report and concur with the report’s
                   recommendations.

                   2. Attached is VHA’s corrective                   action    plan     for
                   recommendations one and two.

                   3. Should you have any questions, please contact Karen M.
                   Rasmussen, M.D., Director, Management Review Service
                   (10AR), at (202) 461-6643 or email at VHA10ARMRS2@va.gov.




VA Office of Inspector General                                                                  10
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting


                      VETERANS HEALTH ADMINISTRATION (VHA)

                                          Action Plan

OIG Draft Report, Community Based Outpatient Clinic Summary Report –
Evaluation of CBOC Cervical Cancer Screening and Results Reporting

Date of Draft Report: August 5, 2014

Recommendations/                              Status                            Completion
Actions                                                                         Date

Recommendation 1. We recommended that the Interim Under Secretary for Health
ensure that a consistent process is established for notifying ordering providers of
abnormal cervical cancer screening results within the required timeframe and that
notification is documented in the electronic health record.

VHA Comments

Concur.

VA Directive 2009-19, Ordering and Reporting of Test Results, provides the details for a
consistent process that VA established in 2009 for notifying ordering providers of
abnormal test results and how that notification is documented in the electronic health
record. VHA will monitor this notification through existing VA External Peer Review
Process (EPRP) report mechanisms. Additional requirements for the reporting of
Cancer results are contained in VHA Handbook 1106.1, Pathology and Laboratory
Medicine Service Procedures. Updates to both these policies are in the formal
concurrence process.

                                 In process         Target date for completion: May 29, 2015

To complete this action plan, VHA will provide documentation of:

      VHA Directive 2009-19, Ordering and Reporting of Test Results
      VHA Handbook 1106.1, Pathology and Laboratory Medicine Service Procedures
      Two quarters of EPRP review results of provider notification of cervical cancer
       screening. The first quarterly report is due January 30, 2015.

Recommendation 2. We recommended that the Interim Under Secretary for Health
ensure that a consistent process is established for notifying women veterans of normal
and abnormal cervical cancer screening results within the required timeframe and that
notification is documented in the electronic health record.




VA Office of Inspector General                                                                  11
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting


VHA Comments

Concur.

To ensure consistent communication of cervical cancer screening results to patients,
the current policy requirements will be communicated to the field on the national
Women’s Health Call and national Primary Care Call by December 31, 2014. During
these calls, examples of locally developed strong practices, such as template results
letters and tracking systems, will be shared.

Additionally, an email will be sent to all Primary Care Chiefs, Women’s Health Medical
Directors, Women Veteran Program Managers, the VA Gynecology list serve, and
Chiefs of Surgery prior to December 31, 2014 requesting that Women Veteran Program
Managers communicate with Community Based Outpatient Clinic (CBOC) Women’s
Health Liaisons to ensure that a consistent procedure is established at each CBOC.

The EPRP program will begin measuring cervical cancer screening results notification in
fiscal year 2015 and report results on a quarterly basis to monitor sustained
improvement. These reports will be monitored and shared with Veterans Integrated
Service Network and facility leadership. Each facility EPRP Liaison will receive monthly
lists of cases not meeting the required time frames for communication of normal and
abnormal cervical cancer screening results. A message will be sent to the EPRP
Liaisons encouraging them to work closely with their Women’s Health teams to ensure
proper follow-up has occurred for those patients that lack communication
documentation.

                       In process                   Target date for completion: July 31, 2015

To complete this action plan, VHA will provide documentation of:

      Notes from the Women’s Health Call and national Primary Care Call
       communicating current policy requirements.
      The email sent to all Primary Care Chiefs, Women’s Health Medical Directors,
       Women Veteran Program Managers, the VA Gynecology list serve, and Chiefs of
       Surgery requesting that Women Veteran Program Managers communicate with
       CBOC Women’s Health Liaisons to ensure that a consistent procedure is
       established at each CBOC.
      Two quarters of EPRP review results of patient notification of cervical cancer
       screening. The first quarterly report is due January 30, 2015.




VA Office of Inspector General                                                                  12
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting
                                                                                      Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Mary Toy, RN, MSN, Director, CBOC Program Review
                         Lin Clegg, PhD
                         Matt Frazier, MPH
                         Jennifer Reed, RN, MSHI
                         Victor Rhee, MHS
                         Patrick Smith, MStat
                         Marilyn Stones, BS 

                         Jarvis Yu, MS 





VA Office of Inspector General                                                                  13
                                 Evaluation of CBOC Cervical Cancer Screening and Results Reporting
                                                                                      Appendix D


                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
Office of General Counsel

Non-VA Distribution

Senate Committee on Veterans’ Affairs
House Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
Subcommittee on Health, House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                  14
                                     Evaluation of CBOC Cervical Cancer Screening and Results Reporting
                                                                                          Appendix E

                                               Endnotes
1
 References used for the WH review included: 

 American Cancer Society (January 4, 2012). Health groups issue proposed cervical cancer screening guidelines. 

 Centers for Disease Control and Prevention. CDC Home. Retrieved from: http://www.cdc.gov/cancer/cervical. 

 OEF/OIF Utilization Data, FY2008, 2nd Quarter, Kang H., Department of Veterans Affairs, OPHEH.

 U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2007 Incidence and Mortality Web-

   based report.
 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
 VHA Office of Policy and Planning, August 2008.
 Woolf, S.H. & Harris, R. (2012). The Harms of Screening; New Attention to an Old Concern. The Journal of the
   American Medical Association (JAMA); Vol. 307, No. 6; pgs. 565-566.




VA Office of Inspector General                                                                               15
